                                                               Issue Date
                                                                            August 14, 2007
                                                               Audit Report Number
                                                                            2007-AT-1010




TO:        James D. Branson, Director, Jacksonville Multifamily Housing
           Hub, 4HHMLAS

           Donzella B. Hamm, Director, Departmental Enforcement Center, CVS4


FROM:      James D. McKay
           Regional Inspector General for Audit, 4AGA


SUBJECT:   The Cathedral Foundation of Jacksonville, Inc., Jacksonville, FL
           Used More Than $2.65 million in Project Funds for Questioned Costs


                                 HIGHLIGHTS

 What We Audited and Why

           We audited the Cathedral Foundation of Jacksonville, Inc. (Foundation),
           concerning its involvement as owner and/or manager of four elderly multifamily
           housing projects (projects) located in Jacksonville, Florida. We conducted the
           audit based on a request from the Jacksonville Multifamily Housing Hub, U.S.
           Department of Housing and Urban Development (HUD), Jacksonville, Florida.
           Our audit objective was to determine whether the Foundation operated the four
           projects in accordance with HUD’s regulatory agreements and other applicable
           laws, regulations, and requirements.




  Table of Contents
 What We Found


            The Foundation used more than $2.65 million in project funds for questioned
            costs while the projects had no surplus cash and without required HUD approval.
            The questioned amount included $1.35 million, which the Foundation repaid itself
            without HUD approval for project advances and $1.30 million for questioned
            costs for salaries, fringe benefits, janitorial services, retirement plan, parking fees,
            and other costs. The questioned costs violated federal statutes, regulations,
            contracts, and other HUD requirements. The Foundation and subsidized project
            owners also collected $93,677 in prohibited parking fees from tenants. The
            prohibited parking fees placed an unjustified financial burden on the tenants. The
            violations occurred because the Foundation and project owners did not follow
            HUD’s and other requirements.

 What We Recommend


            We recommend that the director of HUD’s Jacksonville Multifamily Housing
            Hub require the Foundation and project owners to deposit to the project’s residual
            receipt accounts more than $2.5 million for ineligible, unreasonable, or
            unnecessary costs and repay any portion of the $147,277 in unsupported costs that
            it cannot document as reasonable and necessary costs for the projects. We further
            recommend that the director require the Foundation and the owners of the projects
            to reimburse $93,677 to tenants who paid prohibited parking fees.

            We also recommend that the director of the Departmental Enforcement Center, in
            coordination with the director of the Multifamily Division, Jacksonville Hub, take
            appropriate administrative action against the Foundation and project owners for
            not complying with requirements.

            For each recommendation without a management decision, please respond and
            provide status reports in accordance with HUD Handbook 2000.06, REV-3.
            Please furnish us copies of any correspondence or directives issued because of the
            audit.

 Auditee’s Response


            We provided our discussion draft audit report to the Foundation on May 2, 2007.
            We held an exit conference on May 10, 2007. The Foundation provided written
            comments on May 21 2007. It generally disagreed with our report findings.

            The complete text of the Foundation’s written response, along with our evaluation
            of that response, can be found in appendix B of this report. Attachments were not
            included in the report, but are available for review upon request.


Table of Contents                           2
                            TABLE OF CONTENTS

Background and Objectives                                                          4

Results of Audit
      Finding 1: Mismanagement of Project Funds Resulted in More Than $2.65        6
                 Million Disbursed for Questioned Costs
      Finding 2: Tenants of Subsidized Projects Were Inappropriately Charged for   14
                 Parking

Scope and Methodology                                                              15

Internal Controls                                                                  16

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use               17
   B. Auditee Comments and OIG’s Evaluation                                        18




                                          3
                        BACKGROUND AND OBJECTIVES

The Cathedral Foundation of Jacksonville, Inc. (Foundation), was established on August 21,
1962, as a 501(c) (3) nonprofit charitable organization sponsored by the St. John’s Episcopal
Cathedral. The Foundation’s mission is to create a better way of life for elderly tenants
throughout the Jacksonville community through the ownership, operation, administration, and
management of housing and community service programs.

Through May 31, 2006, the Foundation managed one U.S. Department of Housing and Urban
Development (HUD) Section 236 and three HUD Section 202 elderly projects located in
downtown Jacksonville, Florida. The Foundation owned two of the projects. A board of
directors oversaw the operations of each project. The same individual served as the chairman of
the board of directors for each of the projects.

                                                                              Program and
                                                         Date of regulatory      type of      Number
           Projects                    Owner                 agreement          funding       of units
Cathedral Towers (Towers)      Cathedral Foundation       January 21, 1966        202*          202
                               of Jacksonville, Inc.
Cathedral Townhouse            Cathedral Foundation        June 12, 1968         202*           179
(Townhouse)                    of Jacksonville, Inc.
Cathedral Terrace (Terrace)    Cathedral Terrace, Inc.   November 29, 1972    236/Section 8     240
Cathedral Court (Court)        Cathedral Court, Inc.     December 28, 1979    202/Section 8      16

Total                                                                                           637
*Includes section 8 provided through Loan Management Set-Aside Program.

The Foundation relinquished management of the four projects, effective June 1, 2006, to another
management firm that had no identity of interest with the Foundation and owners of the projects.
The change followed concerns that HUD raised about the Foundation’s management although
HUD had not formally required the owners to obtain new management. The Foundation also
made changes in its senior management and hired new personnel. The most recent problems
surfaced during HUD’s December 2005 management review. HUD requested the audit due to
concerns that included questionable costs while the projects had no surplus cash, no funding of
residual receipts, and no repayments on more than $10 million in flexible subsidy loans.




 Table of Contents

                                                  4
                                Flexible subsidy     Individual       Total loan
                  Projects         loan date        loan amount        amount
              Terrace             July 1, 1992        $1,824,227
                                 August 1, 1994        1,386,132      $3,210,359

              Towers             October 1, 1993      $1,990,532
                                December 1, 1997         960,673
                                 October 1, 2002         271,934      $3,223,139

              Townhouse         October 1, 1993       $2,518,634
                                October 12, 1998       1,015,796
                                October 1, 2000          261,617      $3,796,047
              Total                                                  $10,229,545

The audit objective was to determine whether the Foundation operated the four
Projects in accordance with HUD’s regulatory agreements and other applicable laws,
regulations and requirements.




Table of Contents

                                             5
                                    RESULTS OF AUDIT

Finding 1: Mismanagement of Project Funds Resulted in More Than
           $2.65 Million Disbursed for Questioned Costs
The Foundation and/or the owners of the four projects used project funds to pay more than $2.65
million in questioned costs. The payments occurred while the projects had no surplus cash and
without HUD approval. A significant portion of the costs represented Foundation expenses or
markups that were not reasonable and necessary costs for the projects. The $2.65 million
violated federal statutes, the project’s regulatory agreements, HUD regulations, HUD handbook
requirements, and the Foundation’s management contracts with owners of the projects. The
violations occurred because the Foundation and owners did not follow HUD’s statutes and other
requirements. The questioned costs reduced the availability of cash needed to fund the projects
operations.


The $2.65 million includes more than $2.02 million for improper charges, $484,407 for
unreasonable or unnecessary costs, and $147,277 for costs that were not properly supported.

                                                         Unreasonable or     Costs not
                                           Ineligible     unnecessary         properly
                Description                  Costs            costs          supported       Total
 Repayment of advances                      $1,357,238                                     $1,357,238
 Salary and fringe costs                      656,536*                                        656,536
 Janitorial costs                                             $458,101*                       458,101
 Retirement plan costs                                          26,306*        115,372        141,678
 Parking fees                                                                   31,905         31,905
 Other costs                                   6,352*                                           6,352

 Total                                          $2,020,126       $484,407       $147,277    $2,651,810
*These amounts, which total $1,147,295, were for Foundation costs and excessive markups, which were improper
charges to the projects that benefited the Foundation.

Federal statutes provide for civil and other remedies for unauthorized use of multifamily project
assets and income used in violation of the regulatory agreement or any applicable regulation.
The statutes apply to regulatory agreement violations such as paying out any funds for expenses
that were not reasonable and necessary for project operation.




 Table of Contents

                                                  6
Inappropriate Repayment of
Advances


           HUD Handbooks 4370.1, paragraph 2-21(F)(3)(a) and 4370.2, paragraph 2-6(e),
           allow owners and management agents to use surplus cash at the end of annual or
           semiannual periods to repay advances, provided they obtain HUD’s prior
           approval.

           The Foundation inappropriately used more than $1.35 million from four projects
           to repay itself for advances shown in the project’s general ledgers. The advances
           were not repaid from surplus cash, and without HUD’s prior approval. The
           repayments consisted of the following amounts.



                                                               Inappropriate
                           Projects                        repayment of advances
                           Terrace                               $654,183
                           Towers                                $325,354
                           Townhouse                             $268,210
                           Court                                 $109,491
                           Total                                $1,357,238



           In June 2006, a new independent management firm took over management of the
           four projects. From that time through the time of our on-site review, February
           2007, the Foundation and owners did not need to advance funds to the projects for
           their operations.


Inappropriate Salary and
Fringe Costs


           The Foundation used funds from the four projects to pay $656,536 for its salary
           and fringe costs, which it improperly charged to the projects. The amounts
           included




Table of Contents
                                         7
                  •   $244,460 for the Foundation’s administrator. The administrator’s primary
                      duties included oversight and supervision of project operations and
                      personnel. The duties were included in the Foundation’s management
                      contracts with the projects. The projects paid for the administrator’s
                      services when they paid the Foundation’s management fee. Thus, it was
                      improper for the Foundation to also directly charge the projects for costs
                      associated with its administrator.


                                       Projects                        Payroll costs
                                 Terrace                                 $92,814
                                 Towers                                   68,468
                                 Townhouse                                75,816
                                 Court                                     7,362
                                 Total                                  $244,460


                  •   $412,076 charged for four positions that involved duties covered by the
                      projects’ management contracts with the Foundation. From October 2003
                      to May 2006, the projects paid $412,076, which represented all of the
                      payroll and fringe costs for the workers. However, their job descriptions
                      and our discussions with the workers and Foundation officials showed that
                      the workers also performed Foundation duties. The Foundation did not
                      require and maintain employee time distribution records to support time
                      the Foundation claimed that the workers also spent performing project
                      duties. HUD officials had similar concerns about the costs.

                                   Director of
               Business office       facility         Administrative       Director of
   Projects      manager           operations           secretary        support services    Total
 Terrace             $44,249           $57,001              $32,188             $23,150     $156,588
 Towers                32,604           42,000                23,717             17,058      115,379
 Townhouse             36,098           46,501                26,259             18,885      127,743
 Court                  3,494            4,501                 2,542               1,829      12,366
 Total              $116,445         $150,003               $84,706             $60,922     $412,076



  Excessive Janitorial Costs


              The Foundation charged the four projects $458,101 in excessive fees for janitorial
              work it performed. The charges exceeded the amount the Foundation would have
              incurred if it had awarded the janitorial work through a contract with one of three
              lower bidders that responded to its 1999 request for proposal for the work.


Table of Contents                                 8
           The regulatory agreements for each of the projects provide that payment for
           services, supplies, or materials shall not exceed the amount ordinarily paid for
           such services, supplies, or materials in the area where the services are rendered or
           the supplies or materials furnished.

           The Foundation did not provide documentation to explain why it disregarded the
           lower bids and awarded the work to itself at a higher price. It provided various
           documents related to the bid process. The documents contained a list of six bids
           including a bid from the Foundation. The documentation also included a letter
           from the Foundation, thanking a seventh firm for its bid, but did not include a bid
           from the firm. The bids submitted by three firms were less than the Foundation’s
           bid. One of the lower bids was from a firm that had been doing janitorial work at
           the projects for about a decade. On July 9, 1999, the Foundation wrote to that
           firm, stating that it had selected the Foundation’s housekeeping division to do the
           work. The letter contained nothing to indicate that the firm’s bid was not
           responsive to the proposal. The Foundation provided no record or
           correspondence with other low bidders concerning their responsiveness to the
           proposal and why it did not select the lowest bid.

           Effective August 16, 1999, the Foundation awarded the work to itself, adjusted
           the scope of work, and increased its price by more than $2,000 per month. The
           records provided showed no evidence that the Foundation gave the other bidders
           an opportunity to review the revised scope of work and to adjust their bids. After
           selecting itself to do the work, the Foundation did not execute or provide a
           contract for the work. Thus, the Foundation provided no binding agreement that
           governed the scope of work, the projects to be served, the frequency of the
           services, and the cost for the services.

           We calculated the excessive amount ($458,101) from October 1, 1999, through
           May 31, 2006. We based the excessive amount on the 1999 bid submitted by the
           firm the Foundation had used for about a decade for portions of the projects’
           janitorial work. We increased the bid price annually by the average 2.7 percent
           inflation factor calculated based on the consumer price index.


                                             Janitorial fees      Estimate based     Excessive
                      Projects                  charged          on submitted bids     fees
             Terrace                           $387,664               $214,552       $173,112
             Towers                             295,456                163,520        131,936
             Townhouse                          312,482                172,943        139,539
             Court                               30,262                 16,748         13,514
             Total                           $1,025,864               $567,763       $458,101

           That firm’s bid was higher than the bids submitted by two other firms, but it was
           lower than the Foundation’s bid. Based on the two lowest bids, the excessive
           costs from October 1999 through May 2006, after adjustment for inflation,
           amounted to $723,584 and $641,493, respectively.
                                         9
Table of Contents
Inappropriate Retirement Plan
Costs

           HUD’s Management Agent Handbook, 4381.5, REV-2, paragraph 6-38(e),
           allows the cost of retirement plans only for permanent front-line staff that work
           full time at a project. Off-site employees and temporary or part-time on-site
           employees are not eligible. The requirements further provide that rotating
           employees working at more than one project are not eligible unless they qualify as
           full-time employees at one project. Notice 05-08 defines full time as more than
           20 hours per week.

           The Foundation charged the four projects $141,678 for questioned retirement plan
           costs. The amount included $115,372 that was not supported as meeting HUD
           requirements and $26,306 that exceeded the Foundation’s cost.

                                      Not properly
                    Projects          supported        Excessive charge          Total
            Terrace                      $44,370          $10,400              $54,770
            Towers                        31,925             6,915              38,840
            Townhouse                     35,459             7,936              43,395
            Court                          3,618             1,055               4,673
            Total                       $115,372          $26,306             $141,678

                •   The $115,372 was for retirement plan cost for employees the Foundation
                    could not support as full time workers (20 hours per week) at any one
                    project. In each case, the individuals worked exclusively from offices
                    located at one of the four projects. However, from those locations, they
                    performed work for multiple projects, and the Foundation distributed
                    their salary costs to the benefiting projects. Foundation officials stated
                    that it made good business sense to have full-time employees work at
                    multiple projects and that this should not cause them to be considered
                    less than full time for the purpose of the retirement benefits.

                •   The $26,306 exceeded what the Foundation paid under the retirement
                    plan. The Foundation accrued retirement plan costs based on budget
                    estimates. At year-end, it did not adjust the estimates to reflect actual
                    costs. As a result, between October 1, 2003, and December 31, 2005,
                    the Foundation charged the projects $26,306 more than it paid for the
                    retirement plan. The Foundation agreed with the excess cost calculation.




Table of Contents
                                         10
Inadequately Supported
Charges for Parking

              The Foundation used $31,905 in project funds to pay itself for inadequately
              supported employee and guest parking fees. The fees were for a parking lot the
              Foundation owned that was located adjacent to the projects. The Foundation did
              not provide or execute a contract for the parking and it could not identify the
              name and or number of employees and guests covered by the fees. The charges
              occurred from October 2003 to December 2005. Without proper documentation,
              we could not determine if the costs were appropriate. The Foundation stopped the
              practice in December 2005 when HUD questioned the charges, but it did not
              support or reimburse the $31,905.

                            Projects                          Parking fees
               Terrace                                          $12,124
               Towers                                              8,933
               Townhouse                                           9,891
               Court                                                 957
               Total                                            $31,905


Other Costs

              The Foundation charged the projects $6,352 for travel and training for staff
              discussed in the above section whose services and salary represented Foundation
              costs.

                Projects       Training           Travel               Total
               Terrace          $258              $2,168              $2,426
               Towers            191               1,597               1,788
               Townhouse         211               1,769               1,980
               Court              20                 138                 158
               Total            $680              $5,672              $6,352



Conclusion


              The $2.65 million in questioned costs reduced the availability of cash to fund the
              projects operations and adversely affected the projects’ ability to generate surplus
              cash. Surplus cash, when generated, for these nonprofit projects should be
              deposited into residual receipts. Three of the project owners pledged residual
              receipts as security for more than $10 million in flexible subsidy loans. For the
              period October 1, 2003, through September 30, 2006, the projects’ financial
              statements showed no surplus cash. The fourth project did not have any flexible
              subsidy loans.
                                              11
Table of Contents
                   When asked why these conditions occurred, the project’s board chairman1 stated
                   that the board had asked similar questions but did not have all the answers. The
                   chairman, however, cited a lack of knowledge and due diligence in complying
                   with HUD guidance/regulations as contributing factors. The chairman said that
                   the boards were active in their oversight of the projects; however, they were not
                   aware that the Foundation was not adequately responding to HUD’s questions
                   until they received a registered letter from HUD in December 2005. The
                   chairman stated that up to that point, Foundation managers had not informed the
                   board of the problems raised by HUD.

                   The Foundation and project owners either knew or should have known the
                   requirements and implemented appropriate action to enforce compliance. The
                   Foundation and owners have been involved with the four HUD-insured projects
                   for more than 26 years and should have been familiar with the related statutes,
                   regulations, contracts (regulatory agreements and management contracts),
                   handbooks, and other HUD requirements.

    Recommendations


               We recommend that the director of the Multifamily Division, Jacksonville Hub,
               require the Foundation and the owners of the four projects to

                   1A. Reimburse the projects from nonproject sources $1,357,238 million for
                       improper repayment of advances. The repayments should be deposited to
                       the residual receipt account for each affected project.

                   1B. Reimburse from nonproject sources $656,536 for salary and benefits that
                       represented Foundation costs. The repayments should be deposited to the
                       residual receipt account for each affected project.

                   1C. Reimburse from nonproject sources $458,101 that the Foundation paid itself
                       for excessive janitorial costs. The repayments should be deposited to the
                       residual receipt account for each affected project.

                   1D. Reimburse from nonproject sources any portion of $115,372 for retirement
                       plan costs that it cannot support as representing necessary and reasonable
                       project costs. The repayments should be deposited to the residual receipt
                       account for each affected project.

                   1E. Reimburse from nonproject sources $26,306 that the Foundation paid itself
                       for excessive retirement plan costs. The repayments should be deposited to
                       the residual receipt account for each affected project.


1
    The same individual served as chairman of the board of each of the four projects.
                                                        12

    Table of Contents
           1F. Reimburse from nonproject sources any portion of $31,905 in parking fees
               that it cannot support as representing necessary and reasonable project costs.
               The repayments should be deposited to the residual receipt account for each
               affected project.

           1G. Reimburse from nonproject sources $6,352 representing Foundation
               expenses. The repayments should be deposited to the residual receipt
               account for each affected project.

        We also recommend that the director of the Departmental Enforcement Center, in
        coordination with the director of the Multifamily Division, Jacksonville Hub

           1H. Take appropriate administrative action against the Foundation and owners
               for not complying with statutes, regulations, contracts (e.g., regulatory
               agreements and management contracts), handbooks, and other HUD
               requirements.




Table of Contents
                                         13
Finding 2: Tenants of Subsidized Projects Were Inappropriately
           Charged for Parking
The subsidized projects inappropriately charged tenants $93,677 for parking fees prohibited by
HUD requirements. The parking fees created an unjustified financial burden on the tenants.
This condition occurred because the Foundation and owners did not comply with HUD’s
requirements.


HUD Handbook 4350.1, REV-1, does not allow subsidized project owners to charge tenants for
residential parking. The four projects were each approved as HUD subsidized projects under
Sections 202 or 236 of the National Housing Act.

From October 2003 to December 2005, the subsidized projects inappropriately collected $93,677
in parking fees from tenants. In December 2005, the projects stopped the practice based on a
directive from HUD. However, the projects did not reimburse the tenants.

                                                                  Parking fees
                                 Projects                          collected
               Terrace                                             $26,492
               Towers                                               27,106
               Townhouse                                            38,050
               Court                                                 2,029
               Total                                               $93,677



 Recommendation



           We recommend that the director of the Multifamily Division, Jacksonville Hub,
           require the Foundation and owners of the four subsidized projects to

              2A. Reimburse current tenants for any portion of the $93,677 they paid for
                  prohibited parking fees. Parking fees collected from tenants who have
                  moved and for whom it is not feasible to locate them to make the payments
                  should be deposited to the projects’ residual receipt accounts.




  Table of Contents
                                             14
                        SCOPE AND METHODOLOGY

We performed the review from July 2006 to February 2007 at locations in Jacksonville, Florida,
for HUD, the four projects, the Foundation, and our office. The review generally covered the
period October 1, 2003, through May 31, 2006. We adjusted the period when necessary. To
accomplish our objectives, we

   •   Interviewed officials of the Jacksonville HUD Multifamily Housing Hub and the
       Foundation, the former management agent, and Jeffrey Charles, Inc., the current
       management agent.
   •   Reviewed and obtained an understanding of the Foundation’s internal controls and
       control environment.
   •   Reviewed applicable statutes, regulations, contracts (e.g., project regulatory agreements,
       management agreements, management plans, and management certifications), HUD
       handbooks, and other program requirements.
   •   Reviewed HUD’s files, including management reviews and related correspondence
       concerning the projects’ operations and monthly accounting reports for the projects
       submitted to HUD by the Foundation and current management agent.
   •   Reviewed the projects’ and the Foundation’s audited financial statements for fiscal years
       ending in 2004 and 2005, the projects’ unaudited financial statements for 2006, and the
       Foundation’s 2005 Form 990, Return of Organization Exempt from Income Tax,
       submitted to the Internal Revenue Service.
   •   Reviewed the projects’ and Foundation’s financial records such as general ledgers, bank
       statements, journal vouchers, check vouchers, cancelled checks, invoices, contracts, bid
       documents, and other supporting documents for $3,445,220 of the $12,072,126 recorded
       as costs for the four projects during the audit period. We also reviewed 100 percent of
       the $1.35 million that the projects repaid the Foundation for advances. We selected
       transactions based on concerns raised by HUD, vendor characteristics (e.g., related party
       transactions), dollar amounts, and other factors we considered relevant to the selection of
       audit samples. We used audit software to retrieve and analyze electronic accounting data
       the Foundation downloaded from the general ledger for itself and the projects.

We performed the review in accordance with generally accepted government auditing standards.




Table of Contents
                                             15
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


           We determined the following internal control was relevant to our audit objectives:

           •   Policies and procedures that management has in place to reasonably ensure that
               the four HUD-insured elderly projects were operated in accordance with the
               regulatory agreements, applicable laws, and other HUD requirements.

 Significant Weaknesses


           A significant weakness exists if management controls do not provide reasonable
           assurance that the process for planning, organizing, directing, and controlling program
           operations will meet the organization’s objectives.
           Based on our review, the Foundation and owners did not have adequate controls to
           ensure that funds for the four projects were only used for reasonable and necessary
           expenditures that complied with terms of the projects’ regulatory agreements,
           statutes, regulations, and other HUD requirements. The weaknesses were eliminated
           when the Foundation relinquished control of the projects and hired an independent
           agent.




       Table of Contents
                                              16
                                      APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS
                AND FUNDS TO BE PUT TO BETTER USE

Recommendation                        Unreasonable/                    Funds to be put
    number           Ineligible 1/    unnecessary 2/    Unsupported 3/ to better use 4/
      1A              $1,357,238
      1B                 656,536
      1C                                $458,101
      1D                                                  $115,372
      1E                                   26,306
      1F                                                     31,905
      1G                  6,352
      2A             _________          _______           _______            $93,677
     Total           $2,020,126         $484,407          $147,277           $93,677

1/ Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity that
the auditor believes are not allowable by law; contract; or federal, state, or local polices or
regulations.

2/ Unreasonable/unnecessary costs are those costs not generally recognized as ordinary, prudent,
relevant, and/or necessary within established practices. Unreasonable costs exceed the costs that
a prudent person would incur in conducting a competitive business.

3/ Unsupported costs are those costs charged to a HUD-financed or HUD-insured program or
activity when we cannot determine eligibility at the time of audit. Unsupported costs require a
decision by HUD program officials. This decision, in addition to obtaining supporting
documentation, might involve a legal interpretation or clarification of departmental policies and
procedures.

4/ Recommendations that funds be put to better use are estimates of amounts that could be used
more efficiently if an Office of Inspector General (OIG) recommendation is implemented. This
includes reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
incurred by implementing recommended improvements, avoidance of unnecessary expenditures
noted in preaward reviews, and any other savings which are specifically identified. In this
instance, if the Foundation and project owners implement our recommendation, they will correct
the improper financial obligation placed on the tenants by the prohibited parking fees.



Table of Contents
                                              17
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1




                         18
Table of Contents
                      OIG Evaluation of Auditee Comments
Comment 2




  Table of Contents                 19
                     OIG Evaluation of Auditee Comments

Comment 3




Comment 4




Comment 5




 Table of Contents
                                   20
               OIG Evaluation of Auditee Comments




Table of Contents            21
              OIG Evaluation of Auditee Comments




Table of Contents           22
                    OIG Evaluation of Auditee Comments




Comment 1




       Table of Contents          23
                    OIG Evaluation of Auditee Comments




Comment 6




      Table of Contents           24
              OIG Evaluation of Auditee Comments




Table of Contents           25
                    OIG Evaluation of Auditee Comments




Comment 1




Comment 7




     Table of Contents            26
               OIG Evaluation of Auditee Comments




Table of Contents            27
                   OIG Evaluation of Auditee Comments




Comment 8




   Table of Contents             28
              OIG Evaluation of Auditee Comments




Table of Contents           29
              OIG Evaluation of Auditee Comments




Table of Contents           30
              OIG Evaluation of Auditee Comments




Table of Contents           31
                    OIG Evaluation of Auditee Comments

Comment 9




       Table of Contents          32
                    OIG Evaluation of Auditee Comments




Comment 10




       Table of Contents          33
                      OIG Evaluation of Auditee Comments




Comment 11




  Table of Contents                 34
                   OIG Evaluation of Auditee Comments




Comment 1




   Table of Contents             35
Comment 12



                       OIG Evaluation of Auditee Comments




Comment 4




   Table of Contents                 36
              OIG Evaluation of Auditee Comments




Table of Contents
                            37
                         OIG Evaluation of Auditee Comments

Comment 1   The Foundation stated the OIG placed an improper reliance on literal
            interpretations of HUD guidance material designed to shape HUD oversight and
            does not enjoy the force of law. The Foundation maintained that the HUD
            guidance was not designed to burden property management with requirements
            that fly in the face of efficient operations and generally accepted approaches.

            The Foundation’s position disregards the fact it agreed contractually to be bound
            by HUD regulations and handbooks when it executed various project
            owner/borrower certifications. Paragraph 3 of the project owner’s certifications
            for the four projects provides that the owner/management agent agrees to comply
            with the regulatory agreement and with HUD handbooks, notices and other policy
            directives that relate to the management of the projects.

            The Foundation and project owners had no authority to disregard HUD guidance
            covered by the above certifications that they disagreed with or which they feel
            does not enjoy the force of law. The Foundation and project owners are
            responsible for the impact the violations had on their operations and mission.
            Generally, the Foundation and owner did not follow requirements they either
            knew or should have known.

Comment 2   We address these comments where they are discussed in more detail on the
            following pages.

Comment 3   The Foundation requested that we revise the report because it contains many
            erroneous conclusions. The Foundation provided no new information at the exit
            conference or in its written response that warranted revision to the draft report.

Comment 4   Contrary to the Foundation’s position, the violations warrant consideration by the
            Departmental Enforcement Center.

Comment 5   The Foundation will need to work with HUD on resolution of the audit
            recommendation and determination of the amounts to be repaid. As explained
            during the exit conference, HUD will review the recommendations and consider
            additional information from the Foundation and project owners before deciding
            the final amount they should reimburse to the four projects.

Comment 6   The Foundation disagreed with the method we used to calculate the $1.35 million
            it repaid itself for advances. The Foundation claimed the advances prevented
            mortgage default and that repayment of advances should be based on the net inter-
            company changes on an annual basis.

            HUD’s approval is not required for owners to make advances. In fact, HUD
            encourages such advances when needed to help projects to meet their operating
            obligations. HUD has always required prior approval for owners to use project

                                           38
   Table of Contents
            funds to repay advances. Handbook 4370.1, paragraph 2.21(F)(3), requires
            owners to obtain prior HUD approval before repaying project advances on a
            monthly basis or at the end of semi-annual or annual periods used to determine
            surplus cash.

            We tracked the flow of funds through the projects and Foundation general ledgers
            and identified each instance where the Foundation repaid itself for advances
            without HUD approval. Furthermore, the need for advances may have been
            eliminated or reduced if the Foundation had not charged the projects more than
            $1.1 million for costs related to its operations and for costs that were excessive or
            unnecessary.

Comment 7   The Foundation maintains that only $145,268 of the reported $656,536 should be
            disallowed. We reviewed the Foundation’s response and supporting exhibits and
            found no time records or other support for their position that the costs were for
            front line staff allowed to be charged as project cost. Therefore, we did not revise
            our conclusion. The Foundation commented that the projects’ new management
            agent charged similar costs to the projects. The requirements cited for the
            Foundation also apply to the new management agent.

Comment 8   The Foundation believes the $460,000 questioned janitorial cost is too high and
            that it resulted from a flawed and aggressive methodology for a timeframe that
            went beyond the audit period. The Foundation maintained that the 1999 bid data
            we used is dated and the proposed services were too different to be comparable.

            During the course of the audit, we discussed and considered several different
            means to assess the reasonableness of the janitorial cost. We decided to use the
            1999 bids with an adjustment for inflation, because that was the time period the
            Foundation decided to do the janitorial work itself.

            The Foundation provided no documentation to support its comments it was the
            only bidder with the capacity to do the work and to justify awarding the work to
            itself although it was not the lowest bidder. The 1999 bid proposal consolidated
            cleaning work that was previously fragmented between different vendors. After
            obtaining the bids, the Foundation changed the scope of services and awarded the
            work to itself with no evidence that other bidders were given an opportunity to
            review the revised scope of work and to revise their bids. The Foundation did not
            execute or provide a contract with itself to show the scope of work.

            Contrary to the Foundation’s claim, the 1999 bids along with our adjustments for
            inflation provide a conservative estimate of the excessive janitorial cost. The
            questioned cost would have been more if we had used the two other lower bid
            amounts.

Comment 9   The Foundation disagreed with the conclusion that retirement plan costs were not
            allowable.

                                           39
 Table of Contents
              We acknowledged that the affected staff worked for multiple projects, but they
              did not work full time for any one project. HUD requires workers to be employed
              fulltime at one project to qualify for retirement benefits. The Foundation stated
              that the new management agent practices were basically the same as those the
              Foundation followed. The requirements cited for the Foundation also apply to
              costs incurred by the new management agent.

Comment 10 The Foundation disagreed with our recommendation to support or reimburse the
           projects for employee and guest parking fees. The Foundation stated the parking
           fee was reasonable and that the new management agent made similar charges for
           parking.

              We did not question whether the amount paid for the parking fee was reasonable.
              We questioned the cost because the Foundation did not provide or execute a
              contract with the projects for the cost and did not maintain documentation to show
              how much of the cost was for guest parking. HUD subsequently allowed the new
              management agent to charge the projects for two guests parking slots but not for
              employee parking. HUD received a copy of the information the Foundation
              provided in the attachment to its response and will consider it when they assess
              whether to allow the cost. The requirements cited for the Foundation also apply
              to the new management agent.

              The Foundation’s Management Entity Profile identified employee parking as an
              identity of interest service provided to the projects. The disclosures on that form
              did not relieve the Foundation of its responsibility to properly support parking
              charges subsequently paid from project funds.

Comment 11 The Foundation disagreed with our recommendation that they reimburse
           subsidized tenants for the parking fees they paid. The Foundation claimed that we
           misread the handbook requirements that they interpret to allow the questioned
           parking fees.

              The handbook does not allow tenants of subsidized projects to be charged a fee
              for parking. HUD’s approval of the rental schedules does not supercede the
              requirement.

Comment 12 The Foundation maintains that its activities did not compromise the projects and
           put them at risk.

              As cited in the report, the questioned costs adversely impacted the four projects
              ability to generate surplus cash needed to fund residual receipts and for three
              projects to repay flexible subsidy loans. The questioned costs also benefited the
              Foundation because it used project funds to pay Foundation costs it should have
              paid from the management fees it collected from the projects.


                                             40
  Table of Contents
